No. _______

In the
Supreme Court of the United States

Demian Dominguez,
Petitioner,
v.
Brian E. Williams, et al.,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Proof of Service

Rene Valladares
Federal Public Defender,
District of Nevada
*Jonathan M. Kirshbaum
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Jonathan_Kirshbaum@fd.org
*Counsel for Demian Dominguez

I, Jonathan M. Kirshbaum, an attorney who is authorized to file a Petition for
Writ of Certiorari on behalf of Demian Dominguez, hereby certify that all parties
required to be served have been served on March 22, 2021, in accordance with Rule
28.4(a) and 29.3, one copy of the foregoing Petition for Writ of Certiorari, Appendix,
and Motion for Leave to Proceed In Forma Pauperis by delivering said copy, on
consent of opposing counsel, through electronic mail to Charles L. Finlayson, Deputy
Attorney General, 100 North Carson Street, Carson City, Nevada 89701-4717,
CFinlayson@ag.nv.gov.
Dated March 22, 2021
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/Jonathan M. Kirshbaum
Jonathan M. Kirshbaum
Assistant Federal Public Defender

1

